CERTIFICATE OF COMPLIANCE
No. 19In the

illnurt nf tfre
DeWayne D. Knight,
Petitioner

v.

Thomas Grossman, Jr., M.D.,
Respondent
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh
Circuit
PETITION FOR A WRIT OF CERTIORARI

As required by Supreme Court Rule 33.l(h), I certify that
the petition for a writ of certiorari contains 3,286 words,
excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty oflaw that the foregoing is true and
correct.

